No.
IN THE

SUPREME COURT OF THE UNITED STATES

RODNEY JOHNSON, Petitioner,
-vs-

PEOPLE OF THE STATE OF ILLINOIS, Respondent.

On Petition For Writ Of Certiorari

To The Supreme Court Of Illinois

PETITION FOR WRIT OF CERTIORARI

NOTICE AND PROOF OF SERVICE

Mr. Kwame Raoul, Attorney General, 100 W. Randolph St., 12th Floor, Chicago,
IL 60601, eserve.criminalappeals@atg.state.il.us;

Ms. Kimberly M. Foxx, State's Attorney, Cook County State's Attorney Office,
300 Daley Center, Chicago, IL 60602, eserve.criminalappeals@cookcountyil.gov;

Mr. Rodney Johnson, Pacific Garden Mission, 1458 S. Canal St., Chicago, IL
60607

The undersigned, a member of the Bar of this Court, in compliance with Rules 29 and
33.2, on December 28, 2020, mailed the original and ten copies of the Motion for Leave
to Proceed In Forma Pauperis and Petition for Writ of Certiorari to the Clerk of the
above Court and submitted an electronic copy using the Court's electronic filing
system. On that same date, the undersigned personally served the same documents on
opposing counsel by delivering one copy of the Motion and Petition to an employee
authorized to accept service at each office, and mailed one copy to the petitioner by
depositing it in the United States mail, postage prepaid and addressed as above. An
electronic version was also served by email to opposing counsel. All parties required
to be served have been served.

/s/Ann C. McCallister
